  Office of Inspector General
      Audit Report


QUALITY CONTROL REVIEW OF AUDITED
CONSOLIDATED FINANCIAL STATEMENTS
  FOR FISCAL YEARS 2011 AND 2010
        Department of Transportation

        Report Number: QC-2012-009
       Date Issued: November 15, 2011
           U.S. Department of
                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Quality Control Review of Audited                   Date:    November 15, 2011
           Consolidated Financial Statements for Fiscal Years
           2011 and 2010, Department of Transportation
           Report Number: QC-2012-009

  From:    Calvin L. Scovel III                                     Reply to
                                                                    Attn. of:   JA-20
           Inspector General

    To:    The Secretary

           I respectfully submit our report on the quality control review (QCR) of the
           Department of Transportation’s (DOT) audited consolidated financial statements
           for fiscal years 2011 and 2010.

           The audit of DOT’s consolidated financial statements as of and for the years ended
           September 30, 2011, and September 30, 2010, was completed by Clifton
           Gunderson, LLP under contract to the Office of Inspector General (attached). The
           contract required the audit be performed in accordance with generally accepted
           Government auditing standards and Office of Management and Budget Bulletin
           07-04, “Audit Requirements for Federal Financial Statements,” as amended.

           Clifton Gunderson, LLP concluded that the consolidated financial statements
           present fairly, in all material respects, DOT’s assets, liabilities, and net position as
           of September 30, 2011, and September 30, 2010, and net costs, changes in net
           position, and budgetary resources for the years then ended, in conformity with
           U.S. generally accepted accounting principles.

           DOT substantially corrected two of the five significant deficiencies in internal
           control reported in Clifton Gunderson, LLP’s fiscal year 2010 audit report, but the
           remaining three significant deficiencies in internal control are again included in
           this year’s report.
                                                                                2


Clifton Gunderson, LLP’s Fiscal Year 2011 Audit Report

Clifton Gunderson, LLP reported three significant deficiencies in internal control
and seven actual or potential instances of reportable noncompliance with laws and
regulations.

Significant Deficiencies

   1. Financial and Fund Status Monitoring and Reporting - DOT
      management needs to continue addressing the overreliance of manual
      journal entries for financial reporting. Also, DOT needs to employ cost
      accounting methodologies or cost finding techniques to compensate for
      financial system limitations in order to fully implement managerial cost
      accounting requirements. Finally, DOT needs to strengthen fund status
      monitoring and reporting to reduce the risk that anti-deficiency violations
      may occur.

   2. Undelivered Orders - DOT needs to strengthen controls for monitoring
      inactive obligations and reduce unneeded obligations by an estimated
      $1.4 billion. These funds could possibly be made available for other DOT
      requirements.

   3. Implementation of GrantSolutions Grants Management System - The
      Federal Railroad Administration and the Federal Motor Carrier Safety
      Administration need to improve the effectiveness and functionality of their
      grants management processes and systems in order to strengthen controls
      and safeguard obligations.

Noncompliance with Laws and Regulations

      Anti-Deficiency Act - DOT’s management needs to report four actual
      violations of the Anti-Deficiency Act to the President and Congress—one
      for the Maritime Administration, and three for the Federal Motor Carrier
      Safety Administration. Furthermore, DOT’s management needs to
      complete its assessment of two potential violations of the Anti-Deficiency
      Act at the Federal Highway Administration. These OAs should also
      enhance their internal control systems for monitoring of fund balances.

      Federal Managers’ Financial Integrity Act - DOT’s management needs
      to enhance its annual FISMA reporting process to provide sufficient and
      timely information on its assessment of the adequacy of its information
      security program and any significant deficiencies identified that need to be
      reported in the annual assurance statement.
                                                                                3



We performed a QCR of Clifton Gunderson, LLP’s report and related
documentation. Our QCR, as differentiated from an audit performed in accordance
with generally accepted Government auditing standards, was not intended for us to
express, and we do not express, an opinion on DOT’s financial statements or
conclusions about the effectiveness of internal controls or compliance with laws
and regulations. Clifton Gunderson, LLP is responsible for its report dated
November 11, 2011, and the conclusions expressed in that report. However, our
QCR disclosed no instances in which Clifton Gunderson, LLP did not comply, in
all material respects, with generally accepted Government auditing standards.

Clifton Gunderson, LLP made 35 recommendations to strengthen DOT’s
financial, accounting, and system controls. We agree with all, and therefore, are
making no additional recommendations. DOT officials concurred with Clifton
Gunderson, LLP’s findings on the significant deficiencies and actual or potential
instances of noncompliance. The Department also committed to its submitting to
OIG, no later than December 31, 2011, a detailed action plan to address the
findings contained in the audit report. In accordance with DOT Order 8000.1C, the
corrective actions taken in response to the findings are subject to follow up.
Accordingly, please provide us with periodic progress reports on the actions taken
to reduce the approximately $1.4 billion in unneeded obligations discussed in
Clifton Gunderson, LLP’s "Undelivered Orders" significant deficiency.

We appreciate the cooperation and assistance of DOT representatives and
Clifton Gunderson, LLP. If we can answer any questions, please call me at
x61959, or Lou Dixon, Principal Assistant Inspector General for Auditing and
Evaluation, at x61427.


Attachment

                                         #
